<html>
<title> - FIVE YEARS AFTER THE INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT: STOPPING TERRORIST TRAVEL</title>
<body><pre>[Senate Hearing 111-957]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-957

FIVE YEARS AFTER THE INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT: 
                       STOPPING TERRORIST TRAVEL

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2009

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
 56-149 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
               Blas Nunez-Neto, Professional Staff Member
                  Nicole M. Martinez, Staff Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                Matthew L. Hanna, Minority CBP Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk













                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Burris...............................................    18
    Senator Ensign...............................................    22
    Senator Voinovich............................................    29
Prepared statements:
    Senator Lieberman............................................    35
    Senator Collins..............................................    39

                               WITNESSES
                      Wednesday, December 9, 2009

Hon. Rand Beers, Under Secretary, National Protection and 
  Programs Directorate, U.S. Department of Homeland Security.....     5
Hon. Janice L. Jacobs, Assistant Secretary for Consular Affairs, 
  U.S. Department of State.......................................     7
Hon. David F. Heyman, Assistant Secretary for Policy, U.S. 
  Department of Homeland Security................................     9
Timothy J. Healy, Director, Terrorist Screening Center, Federal 
  Bureau of Investigation, U.S. Department of Justice............    11

                     Alphabetical List of Witnesses

Beers, Hon. Rand:
    Testimony....................................................     5
    Prepared statement...........................................    42
Healy, Timothy J.:
    Testimony....................................................    11
    Prepared statement...........................................    89
Heyman, Hon. David F.:
    Testimony....................................................     9
    Prepared statement...........................................    79
Jacobs, Hon. Janice L.:
    Testimony....................................................     7
    Prepared statement...........................................    51

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Ms. Jacobs...................................................    96
    Mr. Heyman...................................................   107

 
                   FIVE YEARS AFTER THE INTELLIGENCE
                  REFORM AND TERRORISM PREVENTION ACT:
                       STOPPING TERRORIST TRAVEL

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Burris, Collins, Voinovich, 
and Ensign.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning. We note the absence of two of our witnesses. This is 
not a protest to the hearing. But Senator Collins and I do note 
for the second time that there are Department of Homeland 
Security (DHS) witnesses having trouble finding their way 
through the traffic to get here. We gave Secretary Napolitano a 
very hard time when it happened to her earlier, and we will not 
hesitate to give it to Mr. Beers and Mr. Heyman.
    Anyway, we are glad you are here. We are going to proceed 
with our opening statements, but we gather that the two others 
are very much on the way.
    Today's hearing is part of our oversight responsibility and 
begins a series now 5 years after the Intelligence Reform and 
Terrorism Prevention Act (IRTPA) was adopted, the so-called 9/
11 Commission legislation. And in this hearing we are going to 
focus on a very important part of our comprehensive homeland 
security framework, architecture, which is: How are we doing at 
stopping terrorists from entering our country? This obviously 
is a most important homeland security responsibility that faces 
our government in the aftermath of September 11, 2001.
    We are going to hear testimony today from four key 
government officials who are on the front lines of our 
country's efforts to achieve this mission. Their jobs are 
daunting, they are complex, and the consequence of a single 
mistake is a pressure I know they continually live with and 
that should weigh really on all of us in the government as we 
try to do a better job at protecting our people in an age of 
terrorists who are willing to attack us here at home.
    After having made that statement, I must say, in terms of 
letting our guard down, why I and others are so concerned about 
the security breach at the Transportation Security 
Administration (TSA) that was discovered over this past 
weekend. As you all know, I am sure, a highly sensitive 
screening manual was posted online, apparently for months, 
without being properly redacted. This was a serious breach 
because the manual includes information that could help 
terrorists to defeat and circumvent the TSA inspection process. 
This is actually quite relevant to what we are here to discuss 
today. In this age of freely flowing information, we simply 
have to have adequate safeguards in place to ensure that 
terrorists are not being given any advantages as they plot 
against us. So we will await with real interest and, I say, 
impatience the TSA review of how this possibly could have 
happened and how they are intending not just to make sure it 
does not happen again, but how they are intending to mitigate 
the potential adverse consequences of this mistake.
    The 19 hijackers who attacked our country on September 11, 
2001, traveled to the United States with visas, some obtained 
fraudulently, but most obtained legally. Two of the terrorists 
were at that time illegal because they had overstayed their 
visas. The arrests this fall of a number of people charged with 
planning terrorist attacks in the United States: Najibullah 
Zazi, Betim Kaziu, Michael Finton, and Hosam Smadi, and the 
arrest of David Headley, who was more involved in plots against 
foreign targets, but from the United States, are the most 
recent reminders that terrorists are still crossing our borders 
legally--in Headley's case in and out--living among us, and 
plotting to attack us or, in Headley's case, our allies.
    This Committee takes very seriously our obligation to 
ensure that the Executive Branch is tackling head on the 
challenges posed by violent Islamist extremists to our homeland 
security, and fulfilling that responsibility certainly begins 
with doing everything we can to keep terrorists from ever 
entering the United States.
    There really have been quite a remarkable number of 
additional laws and programs put in place to achieve this goal 
since September 11, 2001. A lot of them, I am proud to say, are 
the result of legislation that began in this Committee but was 
passed, of course, by the full Congress and signed by the 
President. The 9/11 Commission legislation was one of those, 
the 2004 legislation, then the follow-on 2007 legislation.
    I think rather than going on at length about all the 
programs that have been established--U.S. Visitor and Immigrant 
Status Indicator Technology (US-VISIT), the Terrorist Screening 
Center, the National Counterterrorism Center itself, the 
efforts we are making to establish the US-VISIT program, 
depending a lot on fingerprints--has really been a remarkable 
achievement, but I have concerns about some of the questions 
that it raises. And it is no substitute for a biometric exit 
system. The implementation of a biometric entry system at all 
of our Nation's ports really has been a centerpiece of the 
screening system, quite remarkable, but we still, as I say, do 
not have the biometric exit system in place despite numerous 
congressional mandates, and that is a concern that we will 
pursue today.
    I would say bottom line that I think we are a lot safer 
than we were on September 11, 2001, and we are doing a lot 
better from the initial point of contact, which is the consular 
interview abroad where people apply to come in, to all of the 
various databases that people are screened on when they get on 
a plane to come here, to the biometric entry system and to our 
improvements at the exit system as well, we are doing much 
better. But we have to do yet better than this, and, of course, 
as we see in error of judgment made by TSA over the weekend, 
and in some sense what may be some errors of judgment in the 
case of Major Nidal Hasan in Fort Hood--we do not know that 
conclusively, but it feels like that--the consequences are 
really catastrophic.
    So this is the pressure that we live under. This is the 
time in which we have this responsibility. But the four of you, 
I think, and the agencies and the people you represent have 
done a tremendous job to bring us to a position much better 
than we were at on September 11, 2001. We want to explore with 
you today how we can help you and how you can do better at 
improving our systems for stopping terrorists who enter the 
country in a time of rapidly changing technology and clear and 
persistent attempts by the terrorist organizations as reflected 
in the run of cases we have had this year, particularly 
homegrown terrorists coming and going, to attack our country 
again.
    This Committee will be vigilant in the months ahead, in 
this 5-year review of post-September 11, 2001, legislation to 
ensure that the Federal Government continues to strengthen 
these systems, and today's hearing I think is an expression of 
our commitment to do that.
    So I thank all the witnesses for being here, and I am happy 
now to call on Senator Collins for her opening statement.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Five years ago, 
this Committee authored the most significant reform of our 
Nation's intelligence community since the Second World War. 
Today, we recognize that this is no time to rest, no reason to 
pause, in our efforts to protect our country from terrorist 
attacks.
    Earlier this week, we received a chilling reminder of how a 
lapse in security can pose a serious threat to our homeland. As 
the Chairman has indicated, a version of TSA's aviation 
security manual was posted on the Internet for anyone to access 
and read. As former Assistant Secretary of the Department of 
Homeland Security Stewart Baker has said, the manual will 
become a textbook for those seeking to penetrate aviation 
security, and he described the leak as serious.
    Terrorists continually change their strategies and mutate 
their forms of attack. We know, however, that their aim remains 
constant, and that is, to harm our Nation and our citizens.
    The 9/11 Commission noted that as many as 15 of the 19 
hijackers might have been intercepted by border authorities if 
procedures had been in place to link previously accumulated 
information to their names. Several of the hijackers had been 
cited in intelligence agency files for terrorist links. 
Existing but untapped data on travel patterns, bogus visa 
applications, and fraudulent passport information could have 
focused attention on some of these terrorists. And that is why 
this Committee has focused so relentlessly on the issue of 
terrorist travel during the past several years.
    Following the attacks on our country, the Federal 
Government took initial steps to deploy systems and procedures 
to help ensure that terrorists would not again slip undetected 
across our borders. The Intelligence Reform and Terrorism 
Prevention Act of 2004, which Senator Lieberman and I co-
authored, expanded and strengthened many of these initiatives 
and implemented other recommendations of the 9/11 Commission. 
We can look back at a great deal of progress that has been made 
since that time.
    One of these successes is a biometric system for screening 
foreign nationals seeking to enter the United States. The State 
Department now collects fingerprints of foreign nationals who 
apply for visas at U.S. embassies and consulates across the 
world. They compare them to databases containing fingerprints 
of potential terrorists and immigration violators. Those 
fingerprints are now checked at U.S. ports of entry by DHS to 
confirm that the individual arriving into our country is the 
same individual who was approved for the visa abroad.
    Another important accomplishment has been the creation of a 
consolidated terrorist watchlist based on terrorism-related 
information from all parts of the intelligence community as 
well as the Federal Bureau of Investigation (FBI). The 
consolidated list allows the names of individuals to be quickly 
checked to identify terrorism connections. The Intelligence 
Reform Act required that passengers on international flights to 
the United States and flights within the United States be 
checked against this watchlist.
    The Government Accountability Office (GAO) has recommended 
that DHS develop guidelines for the private sector to use the 
terrorist watchlist to screen their employees. These 
guidelines, however, have yet to be issued. The owners and 
operators of our critical infrastructure should be permitted to 
screen their employees against the terrorist watchlist on a 
voluntary basis, as long as appropriate civil liberties 
protections are in place. It is notable that Najibullah Zazi, 
who plotted the recent terrorist attacks in New York, was an 
airport shuttle driver at the Denver Airport. That means that 
he had access to critical infrastructure.
    The Federal Government also has yet to establish a 
mechanism to screen mass transit workers, such as those who 
drive subway trains and buses, against the terrorist watchlist. 
This was required in the 2007 homeland security law. But 
although 28 months have passed, no regulations have been issued 
by DHS. Think about it. Every day these employees have in their 
hands many lives, and a simple check against the watchlist, 
such as that already required for hazardous materials drivers, 
ferry captains, and airline pilots, might prevent a needless 
loss of lives.
    This Committee also authored the legislation in 2007 that 
strengthened the Visa Waiver Program, and I look forward to 
hearing more about that as well.
    As Senator Lieberman has indicated, the Federal Government 
has worked hard and the countless Federal employees are 
diligent in trying to prevent terrorists from coming across our 
borders to do us harm and to prevent them from traveling and 
working within our country. But as the incident with TSA 
reminds us, even what appeared to be an innocent posting to 
help Federal contractors can have serious consequences for our 
security. We need to do more to improve our procedures and to 
guard against security lapses such as this one.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins, for 
your opening statement.
    Mr. Beers and Mr. Heyman, we gave you a hard time about 
being late before you arrived so I need not repeat it, but we 
welcome you. And Senator Collins and I have amply filled the 
time before your arrival.
    Thanks very much for being here. We are taking a 5-year 
look now at all the things that we have done, the systems we 
have created to stop terrorists from being able to enter here, 
and to make sure that those who cause us trouble are noted on 
the way out as well. So we are happy to welcome you back as our 
first witness, Rand Beers, Under Secretary, National Protection 
and Programs Directorate (NPPD) at DHS.

  TESTIMONY OF HON. RAND BEERS,\1\ UNDER SECRETARY, NATIONAL 
    PROTECTION AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Beers. Thank you, Chairman Lieberman and Ranking Member 
Collins. It is an honor for me and David Heyman and the 
partners in this effort from the FBI and the State Department 
to discuss the progress that we have made.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Beers appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    We know, and fully agree with what you have said, that 
terrorists definitely plan and are attempting to carry out 
attacks on our homeland, and that it is our responsibility to 
do everything that we can to deny them the access. At the 
National Protection and Programs Directorate, we are 
responsible for identifying the human threats to our country 
through our US-VISIT program. US-VISIT plays a vital role in 
helping the Federal Government identify people who pose a 
threat before they are admitted to the United States, 
preferably, or if they are here, after they have entered the 
country.
    Our capabilities I think have come a long way in a few 
short years. Before US-VISIT, State Department and Customs and 
Border Protection (CBP) had to rely on travel documents, 
documents that could be easily forged, to determine whether or 
not a visa should be granted or a person should be admitted to 
the United States. Today, I think using biometrics, we can 
verify international traveler identities to make fraud almost 
impossible, stripping terrorists and criminals of anonymity, 
one of their most valuable assets.
    With the power to uncover a person's true identity and 
immigration and criminal history, we have been able to deny 
approximately 9,000 impostors at our ports of entry in the last 
5 years as well as identify a number of others who were 
required to pass through secondary screening to determine their 
travel history.
    The four US-VISIT agencies basically lacked coordinated 
data systems, and there was no real way to exchange information 
easily or check one another's records before making a decision 
to grant a visa, admit someone to the United States, or grant 
some other immigration benefit. I think the Intelligence Reform 
and Terrorism Prevention Act called on us to fully integrate 
the systems of Immigrationa nd Customs Enforcement (ICE), CBP, 
and U.S. Citizenship and Immigration Services (USCIS) as well 
as the State Department and the Justice Department to enable 
information sharing in a timely fashion.
    Today, US-VISIT makes biometric-based information sharing 
between these agencies possible by providing a single source of 
information on criminals, immigration violators, and known or 
suspected terrorists. Every day, 30,000 authorized Federal, 
State, and local government agency users can query US-VISIT 
data and get a response quickly in order to help them 
determine, identify, mitigate, and eliminate security risks.
    And, finally, before US-VISIT, ICE officers lacked timely 
and accurate information about visa overstays, and while this 
system is not perfect, as I am sure we will discuss today, US-
VISIT does analyze and match entry and exit records, identifies 
hundreds of credible leads each week on people who have 
overstayed their visas, and those leads are forwarded to ICE, 
who can then determine what appropriate action that they might 
take.
    So, together, these steps I think have made our efforts to 
prevent terrorist travel more collaborative, more streamlined, 
and more effective than ever before. Let me give you one 
example of the power of this system of improved screening and 
information sharing and how it is helping us to catch dangerous 
people.
    In 2007, a man applied for a visa at a U.S. embassy. When 
the State Department checked his fingerprints, in the database 
there was no negative information about this person, and he was 
granted a visa. Three days later, US-VISIT received from 
Interpol information about the criminal history of this 
individual. This updated data was then run against the existing 
database system and identified this person who had already been 
granted a visa. And that visa was then subsequently denied as 
we passed that information to the State Department.
    The point of making this example is to show you that this 
is not a system that is a one-time-fire-and-forget kind of 
system. It is a system that is updated on a regular basis and 
then run against the existing database. It is dynamic. New 
information is constantly run against the old to make sure that 
we did not miss somebody that we could identify as a person of 
interest and ensure that appropriate action was taken in a 
timely fashion.
    So this individual is but one of thousands of people who we 
have prevented from entering the United States, and yet we know 
that our success is not complete and that we have more work to 
be done.
    So as part of our ongoing effort, we will continue to 
innovate with new systems. We will continue to ensure that 
coordination among the various actors in the Federal Government 
is effective, and we will continue to work abroad with other 
countries to get others to also begin to use biometric 
identification as part of the international system.
    So thank you both for having us here today, and know that 
we are dedicated to protecting the United States. Thank you 
very much.
    Chairman Lieberman. Thanks, Mr. Beers. That anecdote was 
both interesting and encouraging.
    Our second witness is the Hon. Janice Jacobs, Assistant 
Secretary for Consular Affairs, Department of State. Again, for 
those in the room, those watching, this is a system that begins 
way over there, and for most people--but not all, of course--
the initial point of contact is a consular officer at the State 
Department. Thanks for being here.

TESTIMONY OF HON. JANICE L. JACOBS,\1\ ASSISTANT SECRETARY FOR 
           CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Jacobs. Chairman Lieberman, Ranking Member Collins, and 
distinguished Members of the Committee, it is a distinct honor 
to appear before you today. I appreciate the opportunity to 
share with you the many accomplishments of my colleagues in the 
Bureau of Consular Affairs in our continuing efforts to 
strengthen the security of U.S. borders through the vigilant 
adjudication of both U.S. passports and visas while maintaining 
America's traditional openness to legitimate travelers.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jacobs appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    Through enhanced training, technology, and data sharing, 
today's consular officers can more readily distinguish between 
high- and low-risk travelers, concentrating their efforts on 
those requiring more scrutiny while facilitating legitimate 
travel, travel that enhances the U.S. economy and promotes 
mutual exchange and understanding.
    I can state with certainty that in my 20-year Foreign 
Service career I have not seen a transformation more dramatic 
than the one that the Bureau of Consular Affairs undertook 
after the terrorist attacks of September 11, 2001. First as 
Deputy Assistant Secretary for Visas and now as Assistant 
Secretary, I have been personally involved in implementing the 
enormous changes that are detailed in my written testimony. I 
share the responsibility for our twin goals of open doors and 
secure borders with my esteemed colleagues at this table. Our 
close and fruitful cooperation is evidenced through 
unprecedented data sharing and interagency coordination.
    In my written testimony, I outline five pillars of how we 
stop terrorist travel. We rely on technological advances, 
biometric innovations, personal interviews, data sharing, and 
training.
    The first pillar, technological advances, relies on 
comprehensive databases such as the Consular Lookout and 
Support System (CLASS), and the Consular Consolidated Database 
(CCD). CLASS is a database which is updated continuously. 
Because of improved data sharing, CLASS has grown more than 400 
percent with almost 70 percent of records coming from other 
agencies. CCD allows Foreign Service posts, the Department, and 
our partner agencies and offices to view information about visa 
applicants within confidentiality provisions of the Immigration 
and Nationality Act.
    We will soon deploy a global system for conducting and 
tracking consular fraud investigations. A new electronic 
platform, now deployed overseas, will provide consular and 
fraud officers the opportunity to analyze data in advance of 
the interview, enhancing their ability to make decisions. And 
security advisory opinions (SAO) are now processed 
electronically, thus facilitating the processing of nearly 2 
million SAO requests since September 11, 2001.
    The second pillar is the use of biometrics. In fiscal year 
2009, fingerprints of more than 6.7 million visa applicants 
were screened against DHS's Automated Biometric Identification 
System (IDENT), and the FBI's Integrated Automated Fingerprint 
Identification System (IAFIS) databases. Our partnership with 
DHS allows Customs and Border Protection officers at ports of 
entry to verify the identity of travelers by checking against 
fingerprints collected during visa interviews at overseas 
posts.
    We also screen visa applicants against a watchlist of 
photos of known and suspected terrorists obtained from the 
FBI's Terrorist Screening Center. Facial recognition screening 
has proven to be another effective way to reveal impostors.
    The third pillar relies on one of the most significant 
changes in consular practice after September 11, 2001: A 
reemphasis on the personal interview. The interview is an 
opportunity for consular officers to determine the credibility 
of an applicant and the applicant's travel plans and the stated 
purpose of the visit to the United States.
    The fourth pillar demonstrates how we rely increasingly on 
our partners to enhance our ability to make the right decisions 
when adjudicating visa and passport applications through data 
sharing. For example, the Bureau of Consular Affairs, working 
with DHS, has provided visa adjudicating posts overseas with 
access to DHS's Arrival/Departure Information System (ADIS), 
thus giving consular officers more information about an 
applicant's travel history.
    And, finally, the fifth pillar is training. The Department 
of State is committed to providing the highest level of 
training to our consular officers. Over the past 6 years, the 
Department has lengthened and substantially improved the basic 
consular course required of all officers in consular positions 
and continually reviews course content for further enhancement. 
The Department also continually updates the hands-on anti-fraud 
technologies curriculum.
    Allow me to add a brief note about the safety of U.S. 
passports. Since 2005, we have been issuing state-of-the-art 
passport documents with advanced technological features to foil 
the efforts of counterfeiters. We are also doing everything in 
our power to ensure that passports and passport cards are 
issued only to U.S. citizens who are legitimately entitled to 
them. We have greatly enhanced our fraud prevention efforts 
over the past year. In coordination with the Bureau of 
Diplomatic Security, we launched unannounced testing of the 
processes and procedures for passport acceptance and 
adjudication.
    Distinguished Members of the Committee, I believe that we 
have made significant improvements since the attacks of 
September 11, 2001. At the same time, we are constantly looking 
for ways to do better. Please be assured that the Bureau of 
Consular Affairs will continue its close cooperation with our 
partners to find ways to keep this country safe while keeping 
our borders open to legitimate visitors. We believe the record 
of the past 8 years shows that we can make advances in both 
spheres, and we are dedicated to implementing the best possible 
solutions to further these goals.
    Thank you again for the opportunity to be here. I 
appreciate the Committee's continued interest in our work and 
have enjoyed the chance to share some of the many accomplishes 
we have had over the past several years, and I am pleased to 
take your questions.
    Chairman Lieberman. Thanks very much, Ms. Jacobs.
    Now we will go to David Heyman, Assistant Secretary of 
Policy at the Department of Homeland Security.

 TESTIMONY OF HON. DAVID F. HEYMAN,\1\ ASSISTANT SECRETARY FOR 
          POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Good morning. Thank you, Mr. Chairman, Senator 
Collins, and distinguished Members. Thank you for the 
opportunity to be here today and to appear before you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Heyman appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    I want to echo Under Secretary Rand Beers, my colleagues, 
the Chairman, and the Senator's commitment to keeping this 
Nation safe, secure, and resilient, and the appreciation that 
this Committee has done to do so.
    Today I want to discuss three key areas in which the U.S. 
Department of Homeland Security plays a central role in 
disrupting and denying terrorist travel: Identification of 
known and suspected terrorists as well as other individuals who 
pose a threat to national security; screening of travelers and 
those seeking immigration benefits; and, finally, securing and 
verifying travel documents to prevent people from illicitly 
traveling to the United States.
    Let me start by putting the challenge of thwarting 
terrorist travel in context. To begin with, people are not born 
as terrorists, nor are extremists necessarily violent. But 
there are key paths along the way in which individuals turn to 
violence and terrorism to include recruitment, radicalization, 
indoctrination, planning, and terrorist action at the end. This 
process can occur in safe havens, in foreign countries, and 
even within our own borders. The U.S. Government deploys a 
number of strategies to counter terrorism, including 
collaborating with our foreign partners, cutting off 
terrorists' financial resources, intercepting terrorist 
communications, targeting terrorist leadership, and countering 
efforts of recruitment, among others.
    But to paraphrase the 9/11 Commission and the Chairman's 
opening statement, targeting terrorist travel is perhaps one of 
the most powerful weapons we have to counter the ability of 
terrorists to operate.
    As evidenced by recent events, the United States and its 
allies have made significant progress in our attempts to 
frustrate terrorists' ability to communicate, to plan, to 
finance, and--the focus of this hearing--to travel to conduct 
operations. Focusing on these four areas allows multiple 
opportunities to interdict.
    Those who seek to engage in terrorist activity rely on 
access to travel networks. Terrorists do travel in order to 
identify and engage in surveillance of potential targets, to 
plan their attacks, to train on tactics and operations, to 
collect funds and documents, and to communicate with other 
operatives. Every step along this way, however, presents a 
vulnerability to would-be attackers who must come out of the 
shadows and interact with the traveling public and our officers 
at ports of entry and abroad.
    What we have learned over the past few years is that border 
security and preventing terrorist travel is more than drawing a 
line in the sand and more than just preventing terrorist 
travel. It is the exercise of our authorities associated with 
border security and the fact that this can be a powerful 
resource to identify and thwart terrorist operations at the 
earliest opportunity.
    At DHS we have a number of ways in which we seek to limit 
and constrain terrorist travel, many of which are accomplished 
before a terrorist even boards a plane. First, we must know who 
poses a potential threat, and to identify those travelers who 
present a risk, we rely on the intelligence community, law 
enforcement, our border security specialists, and our 
international partners. These groups help both to populate the 
watchlist that is managed by the Terrorist Screening Center and 
understand the techniques used by high-risk travelers to blend 
into the rest of the traveling public.
    Data of known and suspected terrorists is then made 
available to DHS to screen through our system, such as the 
Traveler Enforcement Compliance System (TECS), through the 
Automated Targeting System, and US-VISIT's IDENT. Entities such 
as CBP's National Targeting Center, the Terrorist Screening 
Center, Human Smuggling and Trafficking Center, and the 
National Counterterrorism Center (NCTC) collaborate to ensure 
coordinated evaluation and response to potential encounters.
    Second, we must be able to expedite the entry of the vast 
numbers of legitimate travelers while restricting the movement 
of terrorists and other malicious actors. Our knowledge of who 
is associated with terrorism and the practices terrorist 
travelers adopt is applied through a multi-layered, end-to-end 
screening process. This is a process we have developed over the 
last two decades.
    The first layer of that process begins well before 
departure, with programs such as CBP's Global Entry, with our 
Electronic System for Travel Authorization (ESTA), that, like 
the visa adjudication process, provides the DHS the ability to 
identify potential risks during the planning stage through 
checks of the applicants against watchlists, criminal history, 
and other derogatory information.
    The second layer is through the advanced receipt of 
passenger information, reservation data, and manifest 
information. That enables us to identify likely terrorists and 
criminals during their movements and coordinate our response.
    Finally, the third layer, at our ports of entry our 
officers are able to identify people who may be attempting to 
use fraudulent documents.
    Each of these steps reinforces the ones before it, allowing 
us to deny travel prior to departure, target travelers for 
additional inspection, and prevent entry at arrival, and/or 
prevent an individual from remaining in the United States if 
they are not authorized to do so.
    Finally, no amount of watchlisting and screening will help 
us identify terrorist travelers if they are able to travel on 
an assumed identity with fraudulently obtained or fake 
documents. As a result, we need to ensure the security of the 
documents that we require for travel and an accurate accounting 
of documents that have been validated due to loss or theft.
    Through the Visa Waiver Program and the International Civil 
Aviation Organization (ICAO), we have worked to develop global 
standards for the current generation of electronic passports, 
incorporating biometric data that reduces fraud. Through US-
VISIT and other programs, we can verify that the presenter of 
the document is the same person to whom it was issued and who 
we have possibly seen before. And with Interpol, we have worked 
to promote increased use of the Stolen and Lost Travel Document 
database, a global repository of approximately 20 million 
records of invalid passports and identity documents. Today, we 
use this system in most of our border screening programs and 
every month identify cases of fraud that would have otherwise 
been undetectable.
    I submit my full statement for the record, but let me close 
by summarizing that by enhancing the security of travel 
documents, screening persons in advance of travel, identifying 
known and suspected terrorists as well as other inadmissible 
travelers, and denying them entry into the United States, we 
can limit terrorist travel. We can constrain their operations. 
This is one of a number of tools protecting America against 
terrorist attacks.
    I thank the Chairman, thank you, Senator Collins and 
Members, and I look forward to your questions.
    Chairman Lieberman. Thank you, Mr. Heyman. I look forward 
to posing some questions to you.
    Finally, we have Timothy Healy, Director of the Terrorist 
Screening Center at the FBI. It is good to see you again. 
Please proceed.

TESTIMONY OF TIMOTHY J. HEALY,\1\ DIRECTOR, TERRORIST SCREENING 
  CENTER, FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. Healy. Thank you. Chairman Lieberman, Ranking Member 
Collins, and Members of the Committee, thank you for the 
opportunity to talk about the Terrorist Screening Center (TSC) 
and its role in combating terrorist travel.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Healy appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    Over the past 6 years, the TSC has become a powerful tool 
to fight terrorism and integrate the law enforcement and 
intelligence communities by consolidating terrorist information 
into a single Terrorist Watchlist. We are continuing to move 
forward to enhance our partners' ability to combat terrorism by 
improving the U.S. Government's approach to terrorist screening 
and safeguarding civil liberties in the process. Our 
interagency watchlisting and screening efforts have matured 
into a true information-sharing success. With your continued 
support, we hope to improve upon our initiatives to provide 
critical terrorist identity information to our domestic and 
foreign partners for terrorist screening purposes. Let me begin 
by telling you about where we are at today and where we want to 
be in the future.
    Established in 2003, the TSC is a multi-agency center that 
connects the law enforcement communities with the intelligence 
community. We strive to maintain the highest-quality data 
concerning known or suspected terrorists to aid in the 
identification process. We ensure the timely dissemination of 
that terrorist data and that prompt notification is made when a 
known or suspected terrorist has been identified through the 
screening process. We ensure that privacy is protected and 
civil liberties are safeguarded.
    The identities contained in the Terrorist Watchlist 
originate from credible information developed by our 
intelligence and law enforcement partners.
    TSC accepts nominations into the Terrorist Watchlist when 
they satisfy two requirements. First, the biographical 
information associated with a nomination must contain 
sufficient identifying data so that the person being screened 
can be matched to or disassociated from the watchlisted 
terrorist. Second, the facts and circumstances pertaining to 
the nomination must meet ``reasonable suspicion'' which 
requires ``articulable'' facts which, taken together with 
rational inferences, reasonably warrant a determination that 
the individual is known or suspected to be a terrorist.
    Most of the individuals on the Terrorist Watchlist are not 
U.S. citizens, but they are living abroad. The Terrorist 
Watchlist is made up of approximately 400,000 people ranging 
from suicide bombers to financiers. A small portion of the list 
is exported to TSA to create the no-fly list. In order to be 
placed on the no-fly list, a known or suspected terrorist must 
present a threat to civil aviation or national security. 
Consequently, the no-fly list is a very small subset of the 
Terrorist Watchlist. It contains approximately 3,400 people; of 
those approximately 170 are U.S. citizens.
    The screening process leverages thousands of our law 
enforcement officers and other government partners to help 
identify, detect, and deter terrorists. Terrorist screening 
occurs throughout the world at our embassies, at our ports of 
entry, during police stops, during special events, when HAZMAT 
licenses are issued, or when guns are purchased.
    Terrorist screening occurs when processing passports or 
visa applications or citizenship and immigration applications.
    Our Tactical Operations Center operates 24 hours a day and 
receives approximately 150 calls per day. Of those, 
approximately 30 to 40 percent are positive matches to the 
Terrorist Watchlist. All positive matches are forwarded to the 
FBI Counterterrorism Center for the appropriate law enforcement 
response. Additionally, we improve our Terrorist Watchlist by 
updating existing records using the information discovered 
during the encounters.
    In conjunction with the Department of State, we have 
completed bilateral agreements with 17 foreign governments and 
have independently provided screening support for certain 
international events such as the World Games. Over the past 2 
years, our outreach teams have coordinated with all 72 State 
and local fusion centers, and we also provide terrorist-related 
encounter information online.
    TSC notifies fusion centers when encounters occur within 
their area of responsibility. The TSC was recognized for its 
innovative information-sharing initiative at the 2009 National 
Fusion Center Conference.
    As we move forward, our watchlisting efforts must be 
predicated upon four basic operational concepts: Maintenance of 
the highest quality of terrorist identity data, timely 
dissemination of that terrorist identity data, responsive 
information sharing, and safeguarding civil liberties.
    Once a known or suspected terrorist is identified and 
included in the Terrorist Watchlist, we must ensure the timely 
dissemination of that terrorist data to our screening partners.
    U.S. Customs and Border Protection uses the Terrorist 
Watchlist at all 327 ports of entry. Law enforcement agencies 
use the Terrorist Watchlist when they conduct their normal 
police checks. The TSA uses the Terrorist Watchlist when they 
coordinate the screening of all commercial air passenger 
travel. The Department of State uses the Terrorist Watchlist to 
screen aliens seeking visas and U.S. persons applying for 
passports.
    The TSC led the interagency initiative to develop an 
effective interagency redress process and maintains a separate 
unit dedicated to resolving redress matters. Working closely 
with our interagency partners, we standardize the interagency 
Watchlist Redress Procedures and provide travelers with an 
opportunity to receive a timely, fair, and accurate review of 
their redress concerns. A traveler who believes they were 
inconvenienced as a result of screening can submit a redress 
complaint through the DHS Traveler Redress Inquiry Program (DHS 
TRIP). The complaint is reviewed by the agency that received it 
and referred to the TSC Redress Unit after it has been 
determined that it has a connection to the Terrorist Watchlist. 
Of note, 0.7 or less than 1 percent of the DHS TRIP complaints 
actually have some connection to the Terrorist Watchlist. We 
review all available information and work with the nominating 
agency to determine if the Terrorist Watchlist status should be 
modified. The TSC neither confirms nor denies an individual 
being on the watchlist. We do, however, assure the inquiring 
entity that we have examined all applicable Terrorist Watchlist 
records to ensure they contain current and accurate information 
and we have taken all reasonable measures to reduce any future 
misidentification.
    We have also established protocols to aid the individual 
who continuously gets misidentified because their name is 
similar to the watchlist. To provide relief in these 
situations, our TSC CBP employees issue what is called a 
Primary Lookout Override so that the individual will not be 
inconvenienced during future screening attempts.
    Our ongoing commitment to high-quality terrorist identity 
data, to the timely dissemination of that information, and to 
share that information once we have encounters occur is our 
ultimate goal. Our watchlisting and screening enterprise would 
not be where it is at today without the superb collaborative 
efforts between the TSC, the FBI, DHS, Department of State, 
Department of Defense, the NCTC, and members of the 
intelligence community.
    Chairman Lieberman, Ranking Member Collins, I look forward 
to answering any questions you may have.
    Chairman Lieberman. Thanks very much, Mr. Healy. I must 
say, if I may paraphrase what Ms. Jacobs said, in her years in 
Federal service, she has not seen so dramatic a transformation 
as they have in the Consular Affairs section. I think it is 
generally true across the board. It has been quite an 
impressive upgrade and also the establishment of a series of 
what I would call filters, but really they are much more than 
that, particularly using modern information technology. So I 
think we have come a long way.
    Let me begin my questioning with you, Ms. Jacobs, because 
as we said, you are at the beginning of the process. I think 
one of the most important provisions of the terrorism 
prevention legislation that we passed in 2004 was the 
requirement that all individuals undergo a personal interview 
when applying for a visa. No matter how advanced and seamless 
our border screening technology becomes, these automated 
databases were obviously created to catch people that we 
already have reason to suspect. They cannot help us discover 
the terrorist who has never come in contact with one of our 
intelligence or law enforcement agencies. Only a trained and 
motivated consular officer is able to identify that terrorist 
who has never made himself or herself known.
    So I wanted to ask you, in the course of their interviews, 
consular officers obviously come across a wide variety of 
travel documents, not always from the country to which they are 
posted. What mechanisms are currently in place to help consular 
officers identify fraudulent documents?
    Ms. Jacobs. Thank you, Mr. Chairman. We have, in fact, put 
in place since September 11, 2001 a very robust anti-fraud 
training program whereby officers who are going out in the 
field to do their first consular assignment start with the 
basic consular course, where they get training in fraud 
prevention and detection. Once they are overseas at a post, 
that training continues. We have an orientation program for all 
of our officers that teaches them what genuine documents look 
like from that particular country, but also they are given 
online tools and other databases that they can check in order 
to confirm the legitimacy of travel documents or documents from 
other countries.
    The officers in the field, and the Foreign Service 
nationals who work alongside them, really are true experts in 
determining whether a document is fraudulent or not. They can 
look, touch, feel documents. They know a wide range of 
documents that are issued in that particular country. But, 
again, we have tools available online where there are entire 
libraries of samples of documents from other countries. We use 
the Edison online tool database in order to verify the 
authenticity of documents.
    So I am very comfortable in saying that we have given 
officers the training and the tools that they need, and we also 
really stress interviewing techniques, the ability when you are 
talking to someone to even look for facial expressions to see 
if someone is telling you the truth.
    I think with all of that put together that the officers are 
much more able today than they were perhaps in the past to pick 
up on clues, on irregularities, either in what someone is 
saying or in the documents that are presented.
    Chairman Lieberman. Yes, and obviously this is very 
important, just to stress the point that I made in offering 
this question. We have got this biometric system, fingerprint 
system, for entry into the country, but for somebody who is not 
in a fingerprint database, obviously the accuracy of the reader 
documents is critically important.
    Tell me a little more about the consular case management 
system that you referred to in your testimony and how that is 
different from what happens today and, if in any way, how it 
will improve the consular interview process.
    Ms. Jacobs. We have had basically individual tracking 
systems available at different posts for tracking fraud cases. 
What we are going to be deploying in the future is a system 
that will be available to everyone. It will be in our 
consolidated database whereby people will be able to look at 
the fraud cases that are being handled at any post around the 
world. We will be able to check on trends. We will be able to 
see if we have visa shoppers, people going from post to post, 
whether we are being told the same thing as was said at another 
post.
    It will give us a much better feel for the amount of fraud 
that we are encountering and, as I said, some analytical tools 
in order for us to be able to detect trends that might be 
occurring.
    We are very excited about this. We are seeing all kinds of 
different uses, both on the visa side and passport side, and we 
think that once this is in place, our ability to detect fraud 
will be enhanced even further.
    Chairman Lieberman. That is good.
    Under Secretary Beers, I wanted to ask you if you would 
talk a little bit about the advantages of a biometric exit 
system. In other words, do you think one is needed? And what 
would its benefit be as opposed to a biographical system for 
law enforcement, including DHS?
    Mr. Beers. Thank you, Senator, for the question. We have 
been looking at this really for some time now. I think with 
respect to the biometric system over the biographic system, the 
real issue to make it most effective is to ensure, in fact, 
that all people who are exiting the country who are in some 
kind of a visa or immigration status, in fact, do check out 
with the country. The current system, which is biographically 
based, does not have that degree of certitude with respect to 
the checkout. The options that we are looking at all have as an 
element the assurance that people cannot exit the country in 
that visa status by air or sea without actually checking out. 
So that will increase our certainty about individuals and 
whether or not they are in status with respect to the time 
frame that their visa was available for or their entry would 
allow them to be in this country.
    It also allows us, because it is biometric, to also check 
effectively as to whether or not any activities that occurred 
after their entry into the country--for example, criminal 
activity--was known and recorded and whether or not there was, 
in fact, some criminal action which was incomplete with respect 
to that. So in the pilot study that we have run, we actually 
picked up some individuals who are wanted in this country who 
were trying to leave the country because of that. So I think it 
is an additional degree of assurance.
    Having said that, as you well know, sir, this is only one 
portion of the way that people can exit this country, but, by 
and large, the people who come in by air go out by air. And so 
it will definitely increase our assurance over that.
    But let me just add as a final point, we do currently have 
a system designed to detect overstays. It is not perfect, but 
it is also in existence, and it does refer cases on a regular 
basis to ICE for taking further action. And a number of 
overstays have been arrested as a result of this system. But 
biometrics I think we believe would enhance this overall 
system.
    Chairman Lieberman. Can you give us, even in broad terms, 
any timeline for deploying a biometric system, for instance, at 
airports?
    Mr. Beers. Yes, sir. We are in the final stages of a 
recommendation to the Secretary of Homeland Security for the 
system to be selected from among the various options that we 
tried and some that have been put together as a result of that 
test, but which were not actually tested. And my expectation is 
that she will be reviewing this in the course of either this 
month or the next month. We will then share that with you all 
and with others. It is not going to be a free system under any 
circumstances, and we will have to provide you, as I promised 
Senator Voinovich, among others, an actual budget amount that 
would be forwarded. Then we would go into rulemaking, and my 
expectation is that actual implementation would probably not 
begin in this fiscal year, although we will try, if it is 
possible, with some test points to do that.
    Chairman Lieberman. Well, that is actually good news. 
Obviously, we wish it would have happened earlier, but you are 
on a timeline now that will take us to deployment of a 
biometric exit system at airports if not in this fiscal year, 
then presumably early in the next one. Then at another time I 
would be interested in hearing about what you think the 
challenges are to deploying a biometric system at land points 
of exit.
    Mr. Beers. That is a much longer conversation, sir.
    Chairman Lieberman. It is. We will come back to that. Thank 
you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Beers, I have a copy of the TSA Aviation Security 
Manual that was posted on the Internet, and every single page 
of this manual has at the top of it ``Sensitive Security 
Information.'' At the bottom of the cover page, it says 
``Warning: This record contains sensitive security information 
that is controlled. No part of this record may be disclosed to 
people without a need to know without the written permission of 
either the head of TSA or the Secretary of Transportation.'' It 
goes on to say that ``Unauthorized release may result in civil 
penalties.''
    So how did this happen?
    Mr. Beers. Let me start, because we both have spent the 
morning--and, quite frankly, that is why we were late--in being 
able to answer the expected questions that you all quite 
legitimately would pose about this.
    The first point I want to make is there is no question that 
this was inappropriately posted on this Web site and that the 
protections that were supposed to have been put in place were 
not adequate. And this, I think, represents a breach of all of 
the protocols that you just noted in indicating the nature, 
Sensitive Security Information (SSI), do not disclose, etc. All 
of those I think are correct. As a result of this--but let me 
make two other points first.
    The first thing is that this document that you are 
referring to is a document which was for supervisors. It was 
not for front-line screeners. So the actual screening 
procedures that a transportation security officer (TSO), would 
actually use at a screening point are not in that document.
    The second thing is it is an older document. It is six 
versions ago in terms of that. That does not mean that it is 
not an inappropriate release of the document, as you quite 
correctly said.
    Senator Collins. But are you saying that this has 
substantially changed in the last year and a half? Because that 
is not my understanding.
    Mr. Beers. Mr. Heyman, I, and the Secretary all talked to 
the Acting Administrator of TSA. The document has changed since 
then. I am not using that as an excuse to say that this is not 
a problem. But the other part of it, quite honestly, is that 
the actual screening procedures are not in that document, and 
that is the procedures that individual transportation security 
officers actually use at the checkpoints. So that is, I think, 
an important distinction to make about this particular 
document.
    Senator Collins. But let me tell you what is in the 
document, and since this document is widely available now and 
has been discussed in the press, I do not believe I am 
revealing anything that is not already out there. And, Mr. 
Heyman, I will address this issue to you.
    There is a whole section in this document on credentials, 
on the IDs that are used by the Central Intelligence Agency 
(CIA), that are used by the U.S. Marshals, that are used by the 
Bureau of Alcohol, Tobacco, and Firearms. There are pictures of 
the actual IDs and of the badges.
    I would say to my colleagues that there is a page with a 
picture of what an ID for a U.S. Senator looks like. And, 
ironically, in the airport this weekend, I had the screener 
look at my ID and check the manual.
    So this is important. If we are talking about making sure 
that people who would do us harm do not have the ability to 
falsify documents, we have given them a textbook on how to do 
so in this manual because we have showed them exactly what 
documents look like for individuals who are likely to receive 
less screening because they have these documents, because they 
are law enforcement officials, for example. So there is a lot 
of sensitive information in here.
    Have you notified the agencies whose credentials are 
included in this document to tell them that the information is 
out there and that now their credentials may be vulnerable to 
being counterfeited?
    Mr. Heyman. Thank you, Senator, and I suppose I should 
thank Under Secretary Beers for the opportunity to answer this 
question.
    Let me just echo Under Secretary Beers' comments. This is 
entirely unacceptable. There is no one at the Department who 
has any opinion to the contrary on this, and you bring up what 
are the next steps on this.
    First of all, there is a full investigation that is 
underway. In the last 48 hours, we have removed the information 
from the Web site. The practice of posting SSI documents in 
whole or part has been suspended pending further review. The 
Acting Administrator yesterday designated all operational 
standard operating procedures to be designated in whole as SSI. 
And the appropriate persons have been put on administrative 
leave pending the review.
    We also need to recognize that it is axiomatic to security, 
and particularly to aviation security, that we have a defense 
in-depth and a layer defense that no single security measure is 
the entirety of our security measures. As Under Secretary Beers 
has made clear, this is one of a number of manuals for securing 
the checkpoints, and it is also important to note that while 
terrorists change their tactics, we change our tactics, too, on 
security. That is why there are six versions of this document. 
That is not to say that we change our secure documents as you 
have indicated on a regular basis, but in the interim, we have 
actually already put in place interim security measures that 
are being deployed enterprise-wide, and we have, in fact, as 
you have asked, notified not just those who may be interested 
stakeholders in the unauthorized release of this information, 
but also other stakeholders who we work with on a day-to-day 
basis.
    Senator Collins. Are you conducting a damage assessment, 
such as would happen in other parts of the intelligence 
community when there is a breach like this?
    Mr. Heyman. Yes. There is a review of the actual incident. 
There is an Inspector General (IG) review going on there. And 
we are looking at what the implications are to security.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    So do I understand that, therefore, you will be considering 
perhaps even reengineering parts of the systems to close any of 
the vulnerabilities that may have been exposed by this breach?
    Mr. Heyman. We are going to let the review give us the 
indication of where we should go.
    Mr. Beers. But in particular on the issue of 
identification, there are additional augmented layers with 
respect to those exempted categories to ensure that there is a 
second official--or that TSA Acting Administrator Gail Rossides 
has put in place a second official who will ensure that to the 
extent that we can identify fraudulent documentation--and we do 
spend a lot of time looking at fraudulent documentation, 
including official identification, to make sure that we are 
having a second look, to make sure that those kinds of 
exposures, in fact, have a second layer, as Mr. Heyman 
indicated, in terms of our protected interests.
    Chairman Lieberman. OK, I appreciate it. I think those 
remembering that line from the 9/11 Commission that the events 
of September 11, 2001, happened because of a failure of 
imagination, I think at these moments we have to imagine--and I 
am sure you will--what a terrorist group thinking about getting 
into the United States would do with information that has been 
released now and, therefore, what we can do to alter procedures 
or create second layers to block that from happening. Does that 
make sense?
    Mr. Heyman. Absolutely. Yes, sir.
    Chairman Lieberman. Thanks. Next in order of arrival is 
Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman.
    I do not think I heard a definitive answer to Senator 
Collins' question. Were the other agencies notified about the 
badges and the imprint in the document? Have you all made 
contact with them to reference those specific badges or 
identification for these various law enforcement persons? Yes 
or no.
    Mr. Heyman. Yes.
    Senator Burris. Thank you.
    Let me change the subject a little bit because in terms of 
the whole move of trying to protect our borders and to secure 
the travel to and from our country, we just passed legislation 
here called the Tourist Act to try to encourage tourists to 
come to the United States because we are losing so much money 
because more Americans are going abroad than visitors are 
coming here. But have we noticed any impact on tourism as a 
result of our seeking to have the no-fly list, the screening, 
the fingerprinting, and this process? Has anyone done any type 
of a study as to how it is affecting tourism coming into 
America?
    Ms. Jacobs. Thank you, Senator. The Department of Commerce 
actually does keep track of the number of foreign visitors 
coming to the United States in any given year, and there is no 
question about the fact that immediately after September 11, 
2001, I think for a variety of reasons, not simply because of 
new screening procedures, there was a drop in the number of 
people coming to the United States.
    For our part in Consular Affairs, after September 11, 2001, 
we knew that we had to really focus on security, but at the 
same time, we also were well aware of the need to continue to 
allow legitimate visitors into the United States. And so we set 
about trying to strike the proper balance between what we often 
call secure borders and open doors.
    We have made a number of efforts to facilitate the travel 
of students and exchange visitors, for example, and I would 
note that in the most recent report published by the Institute 
of International Education, the number of foreign students in 
the United States increased by 8 percent last year.
    We have also tried to facilitate business travel because we 
have heard loud and clear from the U.S. business community that 
they felt that somehow----
    Senator Burris. I understand business travel is down.
    Ms. Jacobs. Business travel, I think, is down this year 
from last year. A lot of people attribute that to the global 
economy.
    Senator Burris. But have there been any studies attributing 
that to the increased requirements, of getting a visa to come 
from the consulate or trying to get into the country? Do the 
businessmen want to be bothered with fingerprinting and all of 
these screening processes that they have to go through? Have 
any studies been done in that regard?
    Ms. Jacobs. I am not sure that there have been any sort of 
scientific studies. Certainly we have heard anecdotally of 
people who say that they do not want to come because they 
believe it is too hard. We have done an awful lot of outreach 
overseas and also here in the United States to various----
    Senator Burris. Well, that will create a problem for this 
promotional legislation that we just passed. We are now putting 
funds into saying come back to America, bring us your euros or 
whatever the currencies are, because we are having an economic 
problem with travel. So that would be the Commerce Department 
that would have to promote this kind of thing in cooperation 
with the State Department? Or which agency?
    Ms. Jacobs. Well, the Department of Commerce, of course, 
helps the tourism industry here, so it tries to promote travel 
and tourism. We certainly try to get the word out that our 
borders are still open, our country is still welcoming of 
legitimate visitors here to the United States.
    I really do think, sir, that it is a function of the global 
economy right now. That is why we are seeing a drop in the 
numbers. I think once a recovery is underway, we are going to 
see those numbers come back.
    Senator Burris. Let us hope so, anyway.
    Mr. Healy, you named several agencies involved in this 
whole screening process, and I was listening to you as you gave 
the various agencies. It appears to me that there is just a 
bureaucratic boondoggle with agencies involved in this whole 
process. Could you give a list of all the agencies that are 
checked--Homeland Security, the State Department, the FBI, and 
then Homeland Security has about three or four different 
agencies involved, and then all that information is supposed to 
come into your database, the TSC, to check this person and get 
back to whoever is sending the information in to you. Please 
give me kind of a rundown of how this will work with all these 
various agencies involved.
    Mr. Healy. Yes, Senator. Let me describe kind of how the 
process works, if I could.
    Senator Burris. Sure.
    Mr. Healy. There are members of the intelligence agency 
that would include the FBI and the CIA; and there are members 
of law enforcement. If they have identified a known or 
suspected terrorist, this is how the process works. They have a 
vetting process that they go through. So if they identify 
somebody, they have their normal process that they go through. 
They vet that name. If it is an international terrorist, as an 
example, it would go then to the National Counterterrorism 
Center. The National Counterterrorism Center would vet that 
name as well. There is a process that they go through. There is 
a minimum derogatory information that they would go through, 
that they would look at, that I described, and I have it in 
much more detail in the written testimony. So NCTC will vet it 
a second time.
    After NCTC has looked at it and vetted it a second time, it 
goes to the Terrorist Screening Center where it is vetted a 
third time. So once it gets vetted at that point, it gets 
entered into the Terrorist Screening Center database. Once it 
is entered into the Terrorist Screening Center database, what 
we did was to be able--because of Homeland Security 
Presidential Directive (HSPD-6)--to be ready to be available to 
screening partners, we think a look at what existing databases 
they had.
    So what we do is we export it out to a database called 
NCIC, National Crime Information Center, that makes it 
available to all State and local police officers. We export it 
out to Department of State's system. We export it out to DHS's 
system. And so when they encounter an individual, they do their 
normal process, and then it will pop up that this individual 
has been watchlisted.
    When they see that, there is a process that they go through 
where they will eventually contact the Terrorist Screening 
Center to verify whether or not this individual is, in fact, 
the person. Once we have done that, then we notify the FBI for 
the operational response.
    So I know it sounds like a spaghetti soup of different 
agencies, but it actually works very effectively in terms of 
the process.
    Now, we have multiple agencies that work at the Terrorist 
Screening Center, from TSA, Department of Homeland Security, 
Customs and Border Protection, ICE, and the FBI.
    Senator Burris. So you are saying all those agencies are 
working right there in one location. You do not have to send 
data back and forth to a central location in that agency, but 
the agencies are right on site.
    Mr. Healy. Yes, sir. This screening process works at the 
Terrorist Screening Center, and all these components are at the 
Terrorist Screening Center. The screening process occurs right 
there.
    Senator Burris. That makes sense.
    Mr. Healy. It comes into the TSC. It goes out of the TSC. 
When encounters occur, you have basically all the subject 
matter experts there to work the process, to identify the 
individual and make sure that it gets out to the appropriate 
law enforcement agency for the appropriate response.
    Senator Burris. Mr. Chairman, I see my time has expired, 
but I have to go and preside. I wonder if I may take a couple 
more minutes. Is that permissible?
    Chairman Lieberman. It is OK with me, and Senator Ensign, 
your colleague who is next, has graciously----
    Senator Burris. Thank you, Senator, because I am concerned 
about a couple of friends who have been on a list, and they 
cannot get their names off the list. Who handles this list? 
When they go through the airport, their names are on the list, 
and they turn them around, and they go through this process 
every time they travel. It has not happened in the last few 
months, but I have talked with one of the young ladies who is a 
tall, very good-looking blonde. She looks as American as apple 
pie, but her name evidently is a name that is not common. I 
will not say her name for her own protection, but she has 
trouble every time she goes to an airport to travel, and she 
travels a lot. What is the story with that?
    Mr. Healy. Senator, I think I can try to help you there. I 
was in a unique position because when I got to the Terrorist 
Screening Center, I was there during the early stages that we 
started up, and then I left for a period of time, having 
different assignments within the FBI, and then I came back.
    One of the things that I noted when I came back was the 
redress process, and it was the first thing that they briefed 
me on. The redress process during the early stages of the TSC 
was actually kind of a dream, and what it allows us to do, in 
cooperation with the Department of Homeland Security, is allow 
the individual that feels that they have been watchlisted an 
avenue to go through. They go through the DHS TRIP program, the 
Traveler Redress Inquiry Program, and they submit their name, 
and then that component will vet it to determine whether or not 
this person is on the watchlist. And the DHS TRIP program will 
work with that innocent traveler to facilitate their travel.
    Senator Burris. But does it go all through the system? 
Because I know that one time she was going to New York and she 
was trying to exit New York, and her name was in New York. And 
it was just a shock to her that--I guess the list is there 
because she had supposedly been cleared 2 or 3 months ago from 
some other airport, but the name had not been removed.
    Mr. Healy. Well, the traveler redress process, when DHS 
vets that, and if it has some connection with our watchlist, it 
will get vetted to us. I have a redress component unit that 
goes through that name. What they do is they look and they work 
with the case agent--if this person is legitimately 
watchlisted, they will work with the case agent to see, is 
there any way that we could downgrade this person.
    Senator Burris. Do the names stay on the list?
    Mr. Heyman. Senator, the TRIP program was intended to be a 
one-stop shop so that individuals could go and not have to go 
out to all of these different agencies that are doing the 
security review. It is now available on the Web site, and your 
friend or colleague can go there. It is adjudicated by all of 
the agencies involved, but you only have to go to one place, 
enter your information, and it will be passed on. The Web site 
is www.dhs.gov/TRIP.
    Senator Burris. I hope that she----
    Mr. Heyman. That she is listening.
    Senator Burris. Yes. Thank you very much, and thank you, 
Mr. Chairman. And I do have to leave. I appreciate the extra 
time.
    Chairman Lieberman. Thanks, Senator Burris. Good questions.
    Senator Ensign, thanks for being here. Good morning.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Good morning. Thank you, Mr. Chairman, for 
holding this hearing. I come from the State of Nevada, and 
tourism is very important to my State, but also a lot of people 
do not realize how important it is to the entire country. If 
you combine it all together, it is either the No. 1 or No. 2 
most important industry as far as from an economic standpoint 
for the United States. So it is critical in some of the work 
that is being done here to make sure that we have tourism being 
taken care of, that we have balance between security and making 
it easier for people to come here.
    Having said that, what Senator Collins talked about with 
this TSA document, that gets back to tourism as well. If people 
do not feel safe, they do not travel. As we saw after September 
11, 2001, it is psychological. And this is an incredibly 
serious matter.
    Now, Mr. Beers, you mentioned that this is an old document. 
But these particular documents that we use, our 
identifications, these are current. These are not old ones. 
This one actually says January 2007 to 2009. That is the one 
that we are using right now. And so I do not think that this is 
something that we should just dismiss. I realize that maybe 
some parts of the document may have been reworked, but there is 
a lot in there that is probably still being used.
    How high up did the authorization have to go before this 
was leaked? Did it go up to political appointees? Or were these 
just career people who leaked the documents? Mr. Heyman.
    Mr. Heyman. This was not leaked. It was inappropriately put 
up on the Web site.
    Senator Ensign. Who authorized it?
    Mr. Heyman. This was done in the Security Office, I 
believe.
    Senator Ensign. How high up did the authorization have to 
go before it was allowed?
    Mr. Heyman. I would have to get back to you on that.\1\
---------------------------------------------------------------------------
    \1\ Responses to the questions asked by Senator Ensign appear in 
the Appendix on page 117.
---------------------------------------------------------------------------
    Senator Ensign. I think that is really important. And not 
only the people who put it on the site, you said that these 
people were put on administrative leave. I think Mr. Beers is 
the one who said that. Were the people who authorized it also 
put on administrative leave? You said you do not know who 
authorized it.
    Mr. Heyman. Again, we would have to get back to you. We are 
doing the review right now.
    Senator Ensign. OK. But you made the statement that they 
were put on----
    Mr. Heyman. People who were involved in this have been put 
on administrative leave. That is the information we got from 
the TSA Acting Director this morning before we came over here.
    Senator Ensign. OK. Let us make sure you get back to us to 
find out whether the people who authorized it were also put on 
administrative leave. We do not want to just have a scapegoat 
out there. The people who authorized this need to be held 
responsible as well. I consider this a very serious breach.
    You mentioned that a review is going on. Do we have a 
timeline on the review?
    Mr. Heyman. No, I do not have that for you.
    Senator Ensign. OK. Do we know when we will have a 
timeline? Is it months? Is it weeks?
    Mr. Heyman. No. They have been moving very quickly on this. 
There are two reviews. There is the Inspector General review as 
well as the Office of Investigations review.
    Senator Ensign. OK. If you could get back to us on how long 
you think it is going to take to complete the review process.
    Mr. Heyman. Sure, happy to.\2\
---------------------------------------------------------------------------
    \2\ Responses to the question asked by Senator Ensign appear in the 
Appendix on page 118.
---------------------------------------------------------------------------
    Senator Ensign. Obviously, there are several aspects of the 
review. I realize that. But as far as at least give us the 
various timelines when people could be held accountable as well 
as when the review process--what Senator Lieberman talked 
about, where some of the policies would be changed and evaluate 
whether or not--how many things need to be changed. That is 
something, whether it is in a classified forum or whatever, 
that we as members of the Senate should certainly be able to 
have access to.
    Mr. Chairman, that is the reason I attended today. I wanted 
to make a couple of points on this because I do think it is so 
serious a matter, that is seems too often that people are not 
thinking through things or whatever on our security. I agree 
with you, before September 11, 2001, was people did not think 
things were going to happen. We have not had a terrorist attack 
here in a long time, so people may be a little lax with 
security and things like that. I know that is normal human 
nature. That cannot be allowed in the world that we live in 
today, so this is a very important matter and needs to be 
looked at very carefully.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Of course, I agree with you, Senator 
Ensign. I appreciate your line of questioning and what you have 
just said. Maybe we will do one more round as we have 
questions.
    I wanted to ask you some questions coming from this very 
troubling case of the American citizen, known as David Headley, 
charged in Federal court with six counts of conspiracy to bomb 
public places in India, to murder and maim persons in India and 
Denmark, to provide material support to foreign terrorist 
plots, to provide material support to Lashkar-e-Taiba (LeT), a 
Pakistan-based terrorist group affiliated with al-Qaeda, and 
six counts of aiding and abetting murder of U.S. citizens in 
India.
    He is alleged to have made five trips from Chicago, where 
he was living, to Mumbai from 2006 to 2008 to conduct pre-
attack planning and surveillance for LeT on many of the targets 
that were struck in the November 2008 Mumbai attacks. Because 
Headley is a U.S. citizen, his travel, at least based on that, 
based on entry and exit, did not raise suspicions, although it 
may have in other ways, I understand. He was able to use the 
United States as a base of operations. In the briefings that I 
have had on this, without revealing anything classified, it 
seems, I gather, that he was not involved in any plots related 
to targets in the United States, although one wonders whether 
that would have been the case for an extended period of time, 
but that he was using this as a base from which to plan attacks 
outside of the United States.
    It just leads me to ask--and this is a difficult order, 
with everything else we are doing and trained to do--to what 
extent should a case such as this one lead us to think about 
broadening the screens that we have in an attempt to detect and 
disrupt American citizens or residents who are traveling 
overseas to carry out terrorist attacks and how one might do 
that?
    Mr. Beers. Mr. Heyman, do you want to start?
    Mr. Heyman. Sure. Look, these cases are significant, a 
number of cases recently, and I think we see that individuals 
and, in the specific, U.S. citizens are, in fact, sympathetic 
to al-Qaeda, to its affiliates, to the ideology, and as such, 
we can no longer assume that Americans are not involved in 
terrorism. As indicated by the recent indictments, we see also 
the nexus of travel in those who may get further indoctrinated 
abroad or perhaps trained or otherwise.
    We will continue to pursue the programs that we have been 
pursuing to these days that I think have been effective. That 
is to say, continuing to engage with communities through our 
links to State and local partners, we need to do that. I think 
we need to continue working with our colleagues in the FBI and 
the intelligence community to be able to identify threats. 
Travel in and of itself is not necessarily an indicator.
    Chairman Lieberman. Yes, that is the challenge, right?
    Mr. Heyman. Yes. And so I think those are the kinds of 
things that we continue to pursue so that we can help law 
enforcement at the earliest time identify those who may be 
participating in these kinds of activities. And I know you said 
you had----
    Mr. Beers. We certainly have a constant review of those 
procedures going on, and they have been changing. And while I 
do not want to talk about----
    Chairman Lieberman. Which procedures do you mean?
    Mr. Beers. The procedures that DHS, in our responsibility 
for monitoring travel in and out of the United States or in the 
United States by air, has modified procedures based on 
information from the intelligence community in order to try to 
stay current with what we know to be the case and anticipatory 
in terms of trying to think out of the box in order to do that.
    The actual information, as you well know, sir, about the 
possibility of Americans or Westerners being trained in 
Pakistan has been out publicly based on the Director of 
National Intelligence's statement of, I believe 2 years ago.
    Chairman Lieberman. Correct.
    Mr. Beers. And that information obviously was made 
available to us, including in classified forums, and so we have 
looked at ways to try to make sure that we are ahead of the 
curve on this. But going beyond that, obviously we get into 
classified information.
    Chairman Lieberman. It is difficult. Is there a role to be 
played here in sharing information on potential terrorist 
travel with other nations? Mr. Heyman.
    Mr. Heyman. Yes, there is a role, and we actually do 
collaborate, cooperate, and share information with partner 
nations, and there are definitely opportunities to do more of 
that. In the recent arrest in the Netherlands with the Somali, 
that was in close cooperation with the Dutch Government.
    Chairman Lieberman. Good. Let me ask you two questions that 
come from the Headley case for me. One, it has been reported 
that Headley changed his name. One parent was Pakistani, one 
parent was American. His original name was Daood Gilani, and he 
changed it to David Headley, allegedly to reduce scrutiny by 
immigration and customs officials while traveling.
    I wonder, as this is a test case, what can be done to try 
to block this kind of name change being used as a way to avoid 
being on a watchlist or being picked up by some other terrorist 
blockage system. You get my point. To what extent can an 
individual like this make it harder for him to be picked up by 
changing his name, in this case to an American- or English-
sounding name?
    Mr. Healy. Chairman, it is difficult because, first of all, 
I am in a difficult position about commenting on a particular 
case.
    Chairman Lieberman. Yes, understood.
    Mr. Healy. But I find challenges in my particular position 
because it is truly a balancing act. It is a balancing act 
between safeguarding civil liberties and protecting the 
American people. And the best we can do is just keep driving 
the intelligence and keep working the intelligence as much as 
we possibly can to get the information.
    I do not know how else you could do it.
    Chairman Lieberman. Does anyone else have a response on 
that?
    Mr. Heyman. I agree with Tim Healy that this is a 
challenge. Those who are seeking to do harm are constantly 
hearing what we are doing, watching what we are doing, and 
adapting to that. So changing names may be one thing. Changing 
secure documents--attempting to change documents, changing even 
biometrics, people do that. So we have to constantly be working 
to try to counter that through technology, through procedures, 
but also through additional layers so that we are not just 
resting on one thing, one security solution.
    Chairman Lieberman. Yes. I think without making too much of 
a point of it, even though the Headley case presents challenges 
to the system or questions about it, the fact is that through 
quite remarkable work across law enforcement and intelligence, 
he was identified and was stopped. And, of course, though he 
traveled legally in and out of the country, we do have records, 
of course, of every time he traveled in and out, which are part 
of the case that has now been built against him.
    With the indulgence of my colleagues, I want to ask you 
another question. This is a fact case, and I remember it was 
presented to us as a worry by one of your predecessors in the 
last Administration at the Department of Homeland Security, and 
this is something I know people worry about. This is the dual 
passport issue. Someone with Pakistani and United Kingdom 
passports travels to Pakistan with his Pakistani documents, and 
then comes to the United States with his British passport, and 
we do not have any record that he traveled to Pakistan. I do 
not know if that is a question without an answer, but I pose it 
to you because I remember that as a practical fear based on the 
presence of all the training camps and centers of world 
terrorism in the Pakistan-Afghanistan area now particularly.
    Mr. Beers. Sir, that continues to be a concern. I was last 
in London in November and had a 2-hour dialogue with a variety 
of British officials on this particular issue. It is one in 
which we are looking to work out procedures, and I cannot tell 
you we have worked them out yet, but we are absolutely aware of 
this and looking at whether or not there are ways within our 
systems to be able to catch that, because you are absolutely 
right. If the person left the United Kingdom under one passport 
and came back under another passport, being a dual citizen, 
that would be caught by the United Kingdom. But the travel 
under a Pakistani passport is not necessarily under the current 
system going to raise an alert. But they are looking at that 
system, and I think we all have to be cognizant of that.
    Chairman Lieberman. Well, I am encouraged that you are 
raising the question. It is not easy to solve, but I appreciate 
that you are on it. Thank you. Senator Collins.
    Senator Collins. Thank you.
    Ms. Jacobs, to follow up on the question that Senator 
Lieberman just raised, I want to ask you about the status of 
the implementation of the stronger security requirements for 
the Visa Waiver Program that were enacted as part of the 2007 
homeland security law. As you are well aware, the reason we are 
concerned about the visa waiver countries is their citizens are 
not required to be interviewed by the State Department 
officials overseas and submit to other background checks. So we 
have been seeking agreements with countries so that they share 
more information with us on potential terrorists, and that is 
required in order to be a member of the Visa Waiver Program.
    Now, it is my understanding that there are 35 countries 
currently participating in the Visa Waiver Program. could you 
tell us how many of the 35 are currently providing us with the 
enhanced information called for under the 2007 law?
    Ms. Jacobs. Thank you, Senator. I believe in my written 
testimony I refer to agreements with some 17 countries at this 
point, and we would be very pleased at the State Department, in 
conjunction with my colleagues here at the table, to come give 
you a closed briefing on how this process works and how we are 
going about trying to get countries to sign these agreements.
    I will say that sometimes it is a challenge because of the 
different laws that countries have, especially regarding 
privacy. It can be difficult for them to sometimes sign these 
agreements. But I want you to know that the State Department 
along with TSC and other colleagues, are very actively involved 
in trying to get more of these agreements.
    I would add that we were very happy to see the enhanced 
security measures that were put in place for the Visa Waiver 
Program in the 2007 law. We do believe that this has increased 
the security of the program. I think it has also really been a 
good motivating factor for other countries to increase law 
enforcement cooperation, sharing of data, so I think it has 
been a very good thing overall.
    Senator Collins. Just to clarify, I think in your statement 
you say that the State Department and the TSC have agreements 
with 17 countries, but of those, only 13 are Visa Waiver 
Program countries. So it is my understanding that only 13 of 
the 35 countries that are Visa Waiver Program countries are 
participating. That really concerns me. That does not strike me 
as a very good sign that 2 years later we still do not have 
agreements with that many countries.
    Ms. Jacobs. We continue working with all of the visa waiver 
countries trying to encourage them to sign these agreement. As 
I said, for some of them it is difficult because of their laws 
and the privacy laws and procedures that they have in place. 
But you can be assured that we will continue working with all 
of the VWP countries and other countries to try to get this 
data.
    I will say that they are sharing some data, for example, on 
lost and stolen passports. They are now sharing that data with 
Interpol, which is a very big step. We now have a centralized 
way of checking for lost and stolen passports. But we will 
continue to work on these other data-sharing agreements.
    Mr. Heyman. In fact, all 35 countries are sharing lost and 
stolen passport data now.
    Senator Collins. Good. Mr. Healy, I want to follow up on 
the questions that our colleague from Illinois asked you about 
how an individual who should not be on the terrorist screening 
list ends up on the watchlist. And it is heartening to me to 
hear that there is now a single point where an individual can 
appeal to. However, back in 2007, there was a follow-up audit 
of the Terrorist Screening Center that was performed by the 
Inspector General at the Department of Justice that found that, 
on average, it took the Terrorist Screening Center 67 days to 
close its review of a redress inquiry.
    Now, if you are on the no-fly list and you need to fly for 
business, 67 days is a pretty long time to try to get your 
concerns resolved if, in fact, there has been a mistake. Is it 
still that long on average? Or has progress been made since 
this audit was issued?
    Mr. Healy. Senator, we have been able to reduce that time 
frame. Again, we work with our partners, DHS, on that 
particular process. We actually established a secondary 
process. We took a look at the number of individuals that we 
encountered regularly that were properly watchlisted to see if 
we could help that process as well. We took a look at another 
process where we looked at individuals who have similar names 
but that we have encountered numerous times that were not on 
the watchlist. And so we actually proactively reach out to work 
that, unknown to the individuals, to make sure that we work 
with DHS in that process that I described so that they could 
have no screening issues associated with that.
    So it is a challenge. Again, when I first got to the TSC at 
the very beginning, the redress process was kind of a dream. 
And when I came back to be associated with it about 10 months 
ago, it was a dream that became a reality, and that was a lot 
of work, a lot of cooperative effort between DHS and ourselves, 
and then a lot of proactive work. The American people do not 
know, they do not have to necessarily file with the DHS TRIP 
program. If we get a congressional inquiry, it automatically 
starts that. If we read something in the paper about an 
individual that claims they have had a problem, we 
automatically start that process as well.
    So I am excited about how it works, and I am excited about 
how we were able to do it. But, again, when it finally gets to 
us, the vast majority of people that think they are on the 
watchlist typically are not. When you take a look at DHS TRIP, 
the number of inquiries that they had, they had over 78,000 
inquiries of people that thought they were on the watchlist. Of 
that, there were just over 500 that were actually on the 
watchlist that got to us. So the numbers just do not work out. 
They are stopped for a number of reasons not having anything to 
do with the terrorist watchlist.
    But we, together with DHS, work proactively to really try 
to satisfy them. We take it very seriously. Again, the 
challenge that I have is protecting the American people, but 
safeguarding civil liberties. And if I cannot do both, then I 
have failed.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Voinovich, welcome. We had a conflict of events 
today where there was an announcement of legislation that I 
have worked on with Senator Voinovich, Senator Conrad, and 
Senator Gregg on deficit reduction, and so you represented me 
there, I am sure quite well, as I have attempted to represent 
you here. But, anyway, welcome and please proceed.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I pointed out 
in this session that the two of us cosponsored a bill to create 
the SAFE Commission and that Senator Conrad and Senator Gregg 
took that vehicle and tweaked it to have something that is 
going to be acted upon next year, which is terrific. And I 
think everyone understands that if we do not get our debt and 
our budgets taken care of and address our fiscal 
responsibility, a lot of the things that we are trying to do to 
secure America, we will not have the money to do.
    Chairman Lieberman. Absolutely right.
    Senator Voinovich. I think Senator Conrad said it well. He 
said next to our national security, the issue of the debt is 
the second most important thing we need to deal with right now 
because people are really questioning our credibility and our 
credit, and they are very uneasy out there. So I am really 
pleased that there are 27 sponsors, and we have not even gone 
out to find others. Maybe we will get something done. It would 
be wonderful.
    Chairman Lieberman. You have been a very persistent and 
principled leader in this, and I appreciate what you have done. 
So my goal is to make sure we get this done before you leave 
the Senate next year.
    Senator Voinovich. It will make my children and 
grandchildren very happy.
    When we got involved in the Visa Waiver Program (VWP), I 
was very much involved in that, and I would like you to comment 
on how that has really resulted in putting the pressure on 
other participants in the program. Senator Collins made a point 
about it, that there are 35 countries that participate and only 
13 have complied with program requirements. If we had not gone 
forward with the Visa Waiver Program expansion, would we be as 
far as we are with these other countries that really are not up 
to where they ought to be? I mean, these new countries have 
done a great job. They are almost role models, and I understand 
that by the end of this year, Greece is finally--in fact, I 
talked with Prime Minister Papandreou. He is excited that, I 
guess, the Greeks have finally done what they are supposed to 
do, and they are going to come on board with the program. But 
if it had not been for that 2007 VWP legislation, we would not 
have been in a position to lean on these people.
    Could you comment on that at all and how it has helped 
security, and also, if you might, our public diplomacy?
    Mr. Heyman. Sure. Thank you, Senator. I know you have been 
a terrific leader who supports this program, and we thank you 
for that.
    The Visa Waiver Program is an extremely important 
instrument of institutional cooperation with our allies. From a 
security perspective, VWP has helped to introduce, expand, and 
accelerate a host of improved security measures. We talked 
about them this morning. We have enhanced passport requirements 
now the standard--not just with visa waiver countries--
verifiable standards at airports, aviation security, and in 
general, greater cooperation with the United States on an array 
of law enforcement and security issues.
    Moreover, as I just mentioned, nearly every VWP country now 
reports lost and stolen passports to Interpol, and they do that 
according to Interpol standards. So from a security point of 
view, this has been a step in a very good direction.
    But it is also beyond that. It is my belief that there is 
the security in the national security sense that we do not talk 
about in terms of transactions, and that is, by facilitating 
travel to the United States, the VWP plays a vital role in 
strengthening the ties between nations, between peoples, and 
that is something we were talking about earlier in terms of the 
decline in travel to America. We certainly think that we are 
now facilitating enhanced security and travel between these 
nations.
    Senator Voinovich. Well, it is interesting. I was in Latvia 
in July, and I met with President Zatlers and some of his 
folks, and they said that General Mullen was in Latvia, and he 
would have ordinarily been on the front page of the paper, but 
it was the same day that they announced that Latvia was going 
to be participating in the Visa Waiver Program, and that was 
the front-page story, and President Zatlers also relayed how 
excited people were that they were going to be able to take 
advantage of this program, and the same thing was said in 
Lithuania.
    So you would think that because we moved on that 
legislation now we would try to get other countries to come on 
board and meet those high standards that have been set. But the 
question I have--and I know you may not be able to answer it 
today, and it follows upon what Senator Collins said: What kind 
of sanctions do you have? Are you in the position where you can 
say to a country, look, we have given you enough time, you are 
not doing what you are supposed to do, and, by the way, if you 
do not do it, we are going to take you off the list? That is 
tough.
    Mr. Heyman. That is a tough question, and I think the 
program has been designed to take a deliberative, continuous 
assessment of security. We continue to monitor threat 
situations, immigration activities, border security on a 
regular basis in these countries, as well as compliance. And 
there is a requirement that the Department formally review VWP 
designation status at least every 2 years. These formal reviews 
evaluate the country's compliance to the security requirements 
and whether the country poses a significant risk to U.S. 
interests. So that process is in place, and we do continue to 
review not only on a day-to-day basis but also with these 
biennial formal reviews.
    Senator Voinovich. Well, I have a suggestion that may be 
inappropriate, but there are Members of Congress that have good 
relationships with some of these countries. Just maybe a 
telephone call from us or a visit to them might indicate that 
we understand that they are not doing what they are supposed to 
do, or let them know that we are aware of it. That might be 
helpful, particularly coming from those of us on the Foreign 
Relations Committee or the Appropriations Committee.
    Mr. Beers, I understand that we are going to hear from you. 
You answered Senator Lieberman's question about how we are 
going to handle the biometric air exit situation.
    Mr. Beers. Yes, sir, and I hope to be able to come up and 
brief you all on the Secretary's decision in the not too 
distant future. From our last conversation in your office, we 
did complete the pilot study. It was delivered as required to 
the Appropriations Committee. It is an indication of how that 
worked in the two test cases that we ran.
    We have since then taken that study, which we actually 
began before the formal delivery to the Hill because we had the 
information that we needed in order to begin our own 
recommendation, to the Secretary. Mr. Heyman and I are running 
that process. We have had several meetings, including one just 
recently. I think we are at the last stage of presenting the 
Secretary with the options. When she decides, I will come up, 
as I promised you, and brief you.
    I told Senator Collins the same thing, but you know it even 
better--it is going to cost money, and we thank you for the 
additional funds that you saw fit to add to our ability to use, 
at least in the initial stage, those funds to get this program 
started. And as I told the Senator, that will be helpful. We 
would hopefully both come up here and talk with you about the 
process, about the funding requirements, go through with the 
rulemaking that will be necessary in order to undertake this, 
and begin I think by the beginning of next fiscal year, at 
least with the first stages of that program. Hopefully, we will 
be able to do it sooner, but I do not want to make a promise 
that I do not think we can keep. But we will keep you, and the 
full Committee, of course, fully informed in terms of where we 
are in that process.
    Senator Voinovich. Can I follow up?
    Chairman Lieberman. Senator Voinovich, go ahead and take 
whatever time you need because we had a colloquy that took from 
your time.
    Senator Voinovich. We did put some money in the homeland 
security budget for that, and I was assured that it was enough 
to get you started. But I want to make it clear to you that I 
need to know how much money you do need.
    Mr. Beers. Sir, you have made that abundantly clear. There 
is no doubt about that. [Laughter.]
    Senator Voinovich. I have got one more shot next year. That 
is good. I hope we can move on it.
    Senator Lieberman, one of the problems we have got here is 
that the law says that if we do not have this new process put 
in place for biomatric air exit, no new countries can come in 
unless they have a visa refusal rate of less than 3 percent, 
turned down. And so there may be countries that are not now 
signed up who can't get in to the program. How many countries 
do you have that are trying to get in the program now?
    Mr. Heyman. We have 35 Visa Waiver Program countries.
    Senator Voinovich. Yes, but what I am saying is you have 
got a bunch of people, I know, like the Croatians and others 
who are trying to get qualified. Do you know how many countries 
are waiting to come in?
    Mr. Heyman. There are a number of countries that are 
interested that do not--that are looking to have the program 
expanded, which we are not expanding at this point, but we are 
looking to do that perhaps----
    Senator Voinovich. What I am interested in knowing is how 
many countries have come to DHS interested in joining the 
program, and you have told them what the requirements are to 
get in. Do you have any idea off the top of your head of how 
many there are?
    Mr. Heyman. I think it is four, but I can get back with 
you.
    Senator Voinovich. OK. Well, the point is that there are 
not that many right now, but you might get to the point where 
biometric air exit is not in place, because it is going to take 
a lot of work. Mr. Beers will be able to tell us just when it 
will be up and running. And if you get a big backlog of these 
countries that have done a good job of meeting our requirements 
and you are saying to them, well, we cannot admit you because 
we do not have biometric air exit done, it might be an issue 
and something that you want to look at next year or maybe even 
the year after. Hopefully, it will be done by then.
    Thank you very much.
    Chairman Lieberman. Thanks, Senator Voinovich. You have one 
more official shot, but, I will always take your phone calls 
when you are back in Ohio. [Laughter.]
    Senator Voinovich. I have heard that before.
    Chairman Lieberman. I will say, ``George who?'' No, it will 
be a pleasure to hear from you anytime.
    I want to ask two more quick questions. Maybe the answers 
are not so quick, but just to bring us up to date. Director 
Healy, the terrorist watchlist, as we have described, is really 
quite a powerful tool for us in detecting terrorists, denying 
them the ability to travel. Obviously, it is largely name 
based, but I understand that in recent times there has been an 
attempt to add fingerprints, which, of course, would greatly 
increase the utility of the system.
    Tell us a little bit about that and what more you can do to 
expedite that.
    Mr. Healy. HSPD-24 talks about biometrics, and it talks 
very specifically, Senator, about three types of biometrics: 
Fingerprints, iris, and photos.
    Chairman Lieberman. Right.
    Mr. Healy. Right now we are working to implement HSPD-24 
and will be on time, on schedule by the end of this fiscal 
year.
    Currently, we now receive all three of those biometrics. We 
store them, and currently we export to Department of State 
photographs. And so we are working on that. It is a very 
effective tool. I could give you an example that I do when I 
talk about the Terrorist Screening Center that we had an 
individual that knew he was watchlisted, actually changed his 
identity, came into the country, and was applying for 
citizenship. And, fortunately, we had his fingerprints, and he 
was picked up for a driving under the influence (DUI), was 
fingerprinted, and was identified as a KST, a known or 
suspected terrorist.
    So we are working in cooperative effort with the Criminal 
Justice Information Services (CJIS), the FBI, DHS, Department 
of State, and Department of Defense in making sure that we get 
those biometrics and that we are able to meet that deadline for 
HSPD-6. But you are exactly right. When you do have that, 
especially on the no-fly list, you can actually identify that 
individual before they get on a plane and be able to avert that 
travel.
    So it is a challenge, but, I think we are up to it, sir.
    Chairman Lieberman. So to the extent that you are able to 
testify in open session, how do you obtain fingerprints of 
people on a terrorism watchlist?
    Mr. Healy. Again, in consideration that we are in open 
testimony, sir, I would say that we go through the normal 
process in terms of the intelligence community to see what they 
can do in terms of that. We work with the Department of 
Homeland Security and, again, CJIS and IAFIS to see if there is 
any type of records available. So we would go through the 
normal research process that we do to enhance the record as 
much as we possibly can.
    Chairman Lieberman. Am I right that it may be that our 
troops in Iraq and Afghanistan, when they can, are adding 
fingerprints to the system?
    Mr. Healy. Yes, sir. And that is primarily where the 
fingerprints are coming from, especially on the battlefield, 
sir.
    Chairman Lieberman. Correct. Under Secretary Beers, I have 
a final question about US-VISIT and the fingerprint matching, 
which is really quite an extraordinary achievement and advance. 
We have heard reports, however, that it can take up to 72 hours 
for US-VISIT to, for instance, inform a Customs and Border 
Protection officer that a biometric match has been made with a 
criminal record. I understand that the typical primary 
inspection takes seconds, or minutes at most. But if I am right 
about this, what are the reasons for delay in returning matches 
to the inspecting officer at the point of entry? And is there 
anything being done to try to ensure that this happens in a 
more timely fashion? Obviously, the nightmare would be that 
somebody passes the initial screen, is out, and then there is a 
discovery at the point of entry that this person, in fact, has 
a criminal record, is on a terrorism watchlist, or is connected 
to terrorism more directly in a different way than the 
watchlist.
    Mr. Beers. Yes, sir. Basically, the issue now is the real-
time compatibility with the FBI database and our US-VISIT 
database. The information is shared, but the ability of the 
Bureau to actually perform the matching requirements, while in 
many cases is in enough time to be able to do something about 
it, there are cases where it is not. Director Robert Mocney, 
who is sitting behind me, has been working assiduously with his 
colleagues at FBI in order to try to move this ball so that we 
can get within the 10-second rule, which is what we can do with 
our own US-VISIT database.
    So work is going forward on that. I am hopeful that we will 
be able to resolve that. We did move, I think successfully, 
from the two-fingerprint rule to the ten-fingerprint rule that 
we implemented on our side to make sure that we can then give 
the Bureau the same ten prints that we were not able to give 
them before because we were only taking two prints.
    So this is an ongoing effort. I am not sure I can give you 
a time frame yet when we think that will be resolved, but I can 
attest because I participated----
    Chairman Lieberman. You will work it out?
    Mr. Beers. This is an active issue.
    Chairman Lieberman. We will ask you a question about time 
frame for the record. Maybe you have, as they say on cable 
news, breaking news.
    Mr. Beers. Yes, but as Mr. Healy indicated--and Mr. Mocney 
just passed me a note--the KSTs, those people where we have 
fingerprints that are in his database, that we have.
    Chairman Lieberman. That comes up right away.
    Mr. Beers. Right. This is the broader database that is more 
likely to pick up criminals rather than----
    Chairman Lieberman. Criminal background rather than the 
terrorism.
    Mr. Beers. Right.
    Chairman Lieberman. Senator Voinovich, do you have any 
other questions?
    Senator Voinovich. No.
    Chairman Lieberman. Thank you. Thanks to all of you. I will 
keep the record open for another 10 days, and I have some 
additional questions that I will submit to you to answer for 
the record.
    I appreciate what you are doing. Really, we have come a 
long way. Obviously, in an open country which prides itself on 
the ease of going in and out, which is something that is 
fundamental to our country, we have figured out, I think, 
thanks to information technology, an ability to not inhibit all 
the people who are coming here for good reasons while also 
figuring out how to stop the people who are coming here with 
bad motives. But, it is a constant challenge to be ahead of the 
enemy here.
    So I appreciate very much what you have done. I understand, 
based on the exchange between Mr. Beers and Senator Voinovich, 
that you know that some of these programs cost money. But, 
really, we call on you to advocate to us, because we press you 
constantly to do everything and not to make any mistakes in 
doing it. Therefore, you have a right to come back and say to 
us, hey, this is what it is going to cost to make it happen. Of 
course, this is a fundamental part of what I think continues to 
be our primary responsibility, no matter what else we are 
doing, is to promote the common defense, which includes, in our 
time, providing the best possible homeland security.
    Do any of you want to say anything in closing? No? If not, 
I thank you. I wish you a good day. The hearing is adjourned.
    [Whereupon, at 11:31 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 <all>

</pre></body></html>
